OIG Investigative Reports, Day Care Center Operator Pleads Guilty to Stealing Money from Impact Aid Fund at U.S. Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
Roscoe C. Howard, Jr.
United States Attorney for the
District of Columbia
Judiciary Center
555 4th Street, N.W.
Washington, D.C.  20530
PRESS RELEASE
FOR IMMEDIATE RELEASE
August 20, 2003
For Information Contact Public Affairs
Julieanne Himmelstein    (202)514-8203
Day Care Center Operator Pleads Guilty to Stealing Money from Impact Aid Fund at U.S. Department of Education
Washington, D.C. - United States Attorney Roscoe
C. Howard, Jr., Michael Rolince, Acting Special Agent In Charge of the FBI's Washington
Field Office, and Valerie M. Schwarzenbach, Special Agent in Charge of the U.S. Department
of Education's Office of Inspector General's Washington Field Office, jointly announced
today that Beberly Cobham, 52, of Mitchellville, MD, entered a plea of guilty on August 14,
2003, before United States District Judge Reggie B. Walton to one count of Conspiracy to
Receive Stolen Government Property and one count of Conspiracy to Commit Money Laundering in
connection with the theft of $995,136.17 from the United States Department of Education
("DOE").  Pursuant to the plea agreement, Cobham has agreed to a forfeiture judgment of
$149,000 to DOE.  She faces up to 51 months in prison under the Federal Sentencing
Guidelines when she is sentenced at a date to be determined by the Court.
According to the facts presented by the government at the plea
hearing, the stolen funds came from DOE's Impact Aid Program ("Impact Aid"), which is
administered in Washington, D.C.  Impact Aid is a major grant program which assists local
school districts impacted by the presence of tax-exempt federal properties, such as Indian
lands or military bases.  In these districts, the federal properties reduce the local
property tax base that ordinarily serve as a major source of school funding.  Impact Aid is
intended to help replace this lost revenue by distributing payments by wire directly to the
bank accounts of the recipient school districts.
Cobham agreed to receive stolen funds into her business checking
account maintained in the name of her day care center.  A co-conspirator then submitted
fraudulent paperwork to DOE.  The bogus paperwork caused DOE to wire $995,136.17 of Impact
Aid money, intended for a local school district in South Dakota, to Cobham's business
checking account.  Cobham then used the stolen government funds to purchase the property
where her day care center was located.
In announcing today's guilty plea, U.S. Attorney Howard, Acting
Special Agent In Charge Rolince and Special Agent in Charge Schwarzenbach commended the
outstanding investigative work of FBI Special Agent Thomas Chadwick and DOE Special Agents
George Baxavaneos and Gary Mitchell.  They also praised Legal Assistants April Peeler and
Shavonne Jennings, and Assistant United States Attorneys J. Patrick Rowan Jonathan N. Rosen.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov